U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         NATIONAL OCEANIC AND
   ATMOSPHERIC ADMINISTRATION

 Purchase Card Program at the Environmental
    Technology Laboratory Needs Heightened
Monitoring and Strengthened Internal Controls


      Audit Report No. BTD-15139-3-0001/September 2003




                             PUBLIC
                             RELEASE



             Office of Audits Business and Trade Division

